No. 19-1134

In the Supreme Court of the United States
LONNY E. BALEY, et al.,
Petitioners,
v.
UNITED STATES and PACIFIC COAST
FEDERATION OF FISHERMAN’S ASSOCIATIONS,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit

BRIEF OF THE AMERICAN FARM BUREAU
FEDERATION AND THE STATE FARM BUREAU
ORGANIZATIONS OF ARIZONA, CALIFORNIA,
COLORADO, IDAHO, HAWAII, MONTANA, NEVADA,
NEW MEXICO, OREGON, UTAH, WASHINGTON,
AND WYOMING AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
ELLEN STEEN
MICHAEL B. KIMBERLY
Counsel of Record
TRAVIS CUSHMAN
MATTHEW A. WARING
American Farm
Bureau Federation
McDermott Will & Emery LLP
600 Maryland Ave. SW
500 North Capitol St. NW
Suite 1000W
Washington, DC 20001
Washington, D.C. 20024 (202) 756-8000
(202) 406-3600
mkimberly@mwe.com

Counsel for Amici Curiae

i
TABLE OF CONTENTS

Table of Authorities.................................................... ii
Introduction and Interest of the Amici Curiae ..........1
Summary of Argument................................................3
Argument .....................................................................4
I.

The decision below overlooked fundamental
principles of water law .........................................4
A. The court of appeals impermissibly
allowed a federal agency, rather than
state courts, to determine water rights ..........4
B. The court of appeals misapplied the
doctrine of prior appropriation .......................7
C. Reclamation Act delivery contracts do
not override state-law rights to use
water ................................................................9

II. The question presented is exceptionally
important to American farmers and
ranchers .............................................................. 12
A. Water is essential to Western farmers
and ranchers .................................................. 12
B. The decision below eviscerated farmers’
and ranchers’ reasonable reliance
interests ......................................................... 14
Conclusion ................................................................. 16

ii
TABLE OF AUTHORITIES
Cases

California v. United States,
438 U.S. 645 (1978) .............................................. 11
Colorado River Water Conservation Dist.
v. United States,
424 U.S. 800 (1976) ............................................ 6, 7
East Ridge of Fort Collins, LLC v.
Larimer and Weld Irrigation Co.,
109 P.3d 969 (Colo. 2005) .................................... 10
Fox v. Ickes,
137 F.2d 30 (D.C. Cir. 1943) ................................ 11
Ickes v. Fox,
300 U.S. 82 (1937) ................................................ 11
Klamath Irrigation Dist. v. United States,
227 P.3d 1145 (Or. 2010) ............................... 10, 11
Nebraska v. Wyoming,
325 U.S. 589 (1945) .............................................. 11
Nevada v. United States,
463 U.S. 110 (1983) ........................................ 10, 11
United States v. Alpine Land & Reservoir Co.,
697 F.2d 851 (9th Cir. 1983) ................................ 11
United States v. Oregon,
44 F.3d 758 (9th Cir. 1994) .................................... 6
United States v. Pioneer Irrigation Dist.,
157 P.3d 600 (Idaho 2007) ................................... 11
Other Authorities

43 U.S.C. § 666(a) ........................................................ 5
A. Dan Tarlock & Jason Robinson, Law of
Water Rights & Resources (2019 ed.).......... passim

iii
Other Authorities—continued

Andrew P. Morriss, Lessons from the Development
of Western Water Law for Emerging Water
Markets: Common Law vs. Central Planning,
80 Or. L. Rev. 861 (2000) ....................................... 7
Blake Hurst, Calamity in Klamath,
The Am. Enter., Oct./Nov. 2002 .......................... 14
Cong. Research Serv., Irrigation in U.S.
Agriculture: On-Farm Technologies and
Best Management Practices (Oct. 17, 2016) ........ 13
Cong. Research Serv., Klamath River Basin
Issues: An Overview of Water Use Conflicts
(June 13, 2002) ..................................................... 14
John H. Davidson, Sustainable Development
and Agriculture in the United States,
32 Envt’l L. Rep. 10543 (2002) ............................ 13
Lyndon Kelley et al., Mich. State Univ., Adequate
water supply is the heart of an irrigation
system (Mar. 4, 2019) ........................................... 13
Nat’l Geographic, The California Drought ............... 14
Robert Haskell Abrams, Prior Appropriation
and the Commons,
37 UCLA J. Envt’l L. & Pol’y 141 (2019) .............. 8
U.S. Dep’t of Agriculture, Econ. Research Serv.,
Irrigation and Water Use ..................................... 13
U.S. Gen. Accounting Office, Reserved Water
Rights for Federal and Indian Reservations:
A Growing Controversy in Need of Resolution
(Nov. 16, 1978) ..................................................... 15
World Bank, Water in Agriculture ............................ 12

INTRODUCTION AND
INTEREST OF THE AMICI CURIAE * 1

This is a case about water and its importance to
agriculture, particularly in the American West.
Agriculture is essential to modern American life. It
is a critical sector of the national economy: More than
two million farms and ranches stretch across the
American landscape, accounting for roughly $200 billion in annual economic output and employing millions
of hard-working men and women. Agriculture is also
critical to the nation’s abundant, safe, and affordable
food supply—the importance of which is especially apparent today.
But even more than that, agriculture is for millions
of Americans a way of life. Their farms and ranches are
not only their places of business, where they earn their
livings; their farms and ranches are also their homes,
where they raise their families and live their lives.
Water, in turn, is the lifeblood of agriculture. Without it, crops cannot grow and livestock cannot thrive.
Particularly in the American West, therefore, access to
a reliable supply of water for irrigation is essential to
the survival of family farms and ranches.
To encourage development and meet the water
needs of farmers, ranchers, and other users, States
throughout the West long ago adopted the doctrine of
prior appropriation as their method of allocating water
rights. This carefully calibrated system is more than a
century old, and it ensures that water is apportioned
efficiently, fairly, and predictably. Western water users
*1 No counsel for a party authored this brief in whole or part, and
no party other than amici or their counsel made a monetary contribution to the preparation or submission of the brief. All parties
were informed of amici’s intent to file this brief 10 days or more
before its filing, and all have given consent.

2
have come to rely on it (and others’ adherence to it) for
their way of life.
Against this background, amici have a profound interest in the Court’s decision whether or not to grant
the petition.
The American Farm Bureau Federation is a voluntary general farm organization established in 1919 to
protect, promote, and represent the economic, social,
and educational interests of American farmers and
ranchers. AFBF has member organizations in all 50
States and Puerto Rico, representing nearly six million
member families. Its mission is to enhance and
strengthen the lives of rural Americans and to build
strong and prosperous agricultural communities
throughout the Nation.
AFBF is joined on this brief by twelve of its Western State member organizations—those from Arizona,
California, Colorado, Idaho, Hawaii, Montana, Nevada,
New Mexico, Oregon, Utah, Washington, and Wyoming. Like AFBF, each of these organizations was established to promote and protect the interests of farmers and ranchers within its respective State.
Amici recognize that the Federal Circuit’s decision
in this case, if allowed to stand, would upend farmers’
and ranchers’ settled reliance interests on state-law
determinations of water rights. In practical effect, the
lower court held that federal agencies are free to conduct their own allocations of water rights, entirely outside settled state-law frameworks that are supposed to
govern under the McCarran Amendment. If that truly
were the law, it would mark a startling departure from
a century of settled practice. It also would constitute
an unprecedented power grab by federal agencies over
State-administered water resources. Because the practical consequences of the decision below cannot be

3
overstated, it is imperative that the Court grant the
petition and correct the Federal Circuit’s errors.
SUMMARY OF ARGUMENT

The court below misapplied several bedrock principles of water law. If those errors are allowed to stand,
the practical repercussions will be far-reaching.
First, the Federal Circuit disregarded federal law
requiring that water rights reserved on behalf of Indian tribes be asserted and adjudicated in state waterrights proceedings. Rights to use water are governed
by state law, and the federal McCarran Amendment
accordingly makes state water administrators and
courts the primary arbiters of competing claims to water rights. The Federal Circuit declined to respect Oregon’s adjudication of water rights in the Klamath River
Basin, as the McCarran Amendment requires.
Second, in a prior-appropriation State like Oregon,
water rights must be administered in order of priority,
with the most junior rights being curtailed first. But
the court of appeals saw no problem with the Bureau of
Reclamation’s decision to curtail petitioners’ water
rights before first curtailing junior users. The prior appropriation doctrine does not allow for such disregard
of senior users’ priority.
Finally, the Court of Federal Claims held below
that certain petitioners who had signed water delivery
contracts with the Bureau of Reclamation could not assert a takings claim. The court reasoned that these petitioners’ contracts with the government had “altered”
their water rights. Pet. App. 168. But that holding conflated petitioners’ water delivery rights (which are
based on contract) and their rights to use water (which
are property rights under state water law). Petitioners’
use rights are independent of, and cannot be limited
by, their delivery contracts with the government.

4
Each of these serious errors of law is a threat to the
livelihoods of farmers and ranchers across the West.
Enforceable water rights are essential to the survival
of Western agriculture, which depends on reliable
sources of water. Farmers and ranchers count on those
rights being respected in the event of a dispute with
other water users. The lower courts’ decisions substantially erode their reliance interests by authorizing federal agencies to bypass farmers’ state-law water rights
with no more than the say-so of federal bureaucrats—
and without paying farmers and ranchers just compensation, as the Takings Clause requires. This Court
should not allow those decisions to stand.
ARGUMENT
I.

THE DECISION BELOW OVERLOOKED FUNDAMENTAL PRINCIPLES OF WATER LAW

In holding that the government did not take petitioners’ state-law rights to use water in the Klamath
Basin, the court of appeals brushed aside bedrock principles of water law that Congress and this Court have
long recognized. In doing so, the court has imperiled
the livelihood of American farmers and ranchers
throughout the West, where reliable access to water is
critical.
A. The court of appeals impermissibly allowed a
federal agency, rather than state courts, to
determine water rights

Water rights in the United States have historically
been the province of state law. They “are primarily
state-created property rights,” because “water law was,
and still is to a large extent, an incident of land ownership.” A. Dan Tarlock & Jason Robinson, Law of Water
Rights & Resources § 1:1 (2019 ed.). States have accordingly developed both judge-made and statutory
rules to govern water resources. And state administra-

5
tors and courts have developed expertise administering
these rules and adjudicating the claims of different water users.
States resolve competing claims to water rights in
comprehensive adjudications, according to which the
rights of all users in a water system are decided at
once. These comprehensive proceedings provide every
interested party with notice and an opportunity to assert a claim, in compliance with due process standards.
See Tarlock, supra, §§ 7:10, 7:12. The resulting determinations establish the extent and priority of all parties’ water rights. See id. § 7:2.
In many water adjudications, private parties are
not the only ones with interests at stake—rights belonging to the federal government may also be involved. This is particularly common in the West, where
the federal government holds a number of lands either
in its own right or in trust for Indian tribes with water
rights appurtenant to their tribal lands. See Tarlock,
supra, § 7:3.
Even where federal interests are implicated, States
have plenary power to allocate those interests along
with those of other uses in the system. The so-called
McCarran Amendment, enacted in 1952, waives the
United States’ sovereign immunity and gives consent
to “join the United States as a defendant in” any state
“adjudication of rights to the use of water of a river
system or other source.” 43 U.S.C. § 666(a). The Amendment waives any argument “that the State laws are
inapplicable” and provides that the United States
“shall be subject to the judgments, orders, and decrees
of” the state court “to the same extent as a private individual.” Ibid.
As this Court previously has explained, the McCarran Amendment sets a national policy “recogniz[ing]

6
the availability of comprehensive state systems for adjudication of water rights as the means” of assigning
water rights efficiently. Colorado River Water Conservation Dist. v. United States, 424 U.S. 800, 819 (1976).
In Colorado River, the Court held that this policy ordinarily requires federal courts to abstain from water
rights disputes in favor of state water adjudications.
Ibid. Thus, under the McCarran Amendment, state
courts have the near-exclusive power to adjudicate all
water rights within a State (including federal reserved
rights) according to state law.
Nonetheless, the federal court below purported to
determine certain parties’ respective rights in vast water resources in Oregon and California. At the same
time, it barely mentioned the McCarran Amendment.
That is not defensible.
Oregon had the duty and authority under the
McCarren Amendment to determine which users have
rights and priority to the water in the Klamath Basin
according to Oregon law—and it did so, issuing a comprehensive administrative determination for the Klamath Basin in 2014. See Pet. 13. The California tribes
whose interests drove the decision below were afforded
no rights in that determination because they (and the
United States on their behalf) declined to participate in
it. Id. at 14. It was not for a lack of notice. The Ninth
Circuit had expressly declared, years earlier, that “the
Klamath Basin adjudication is in fact the sort of adjudication Congress meant to require the United States
to participate in when it passed the McCarran
Amendment.” United States v. Oregon, 44 F.3d 758,
770 (9th Cir. 1994).
The Federal Circuit nevertheless treated the state
adjudication as irrelevant and afforded the tribes vast
water rights anyway, on the ground that those tribes’

7
rights “are federal reserved water rights not governed
by state law.” Pet. App. 61.
That holding cannot be squared with the McCarran
Amendment or this Court’s precedent interpreting it.
To be sure, tribal water rights are federal in nature.
But as this Court explained in Colorado River, the
McCarran Amendment “provided consent to determine
federal reserved [water] rights,” including those “held
on behalf of Indians[,] in state court,” according to
state water-rights regimes. 424 U.S. at 809. Thus, to
obtain enforceable water rights, the tribes were required to participate in the state adjudication. The
Federal Circuit’s decision to ignore the California
tribes’ forfeiture flouted the requirements of the McCarran Amendment and effectively trammeled Oregon’s authority and the other parties’ rights and reasonable reliance interests. It should not stand.
B. The court of appeals misapplied the doctrine
of prior appropriation

In addition to ignoring the primacy of Oregon’s water-rights adjudication, the court of appeals misapplied
Oregon water law. According to the Federal Circuit,
federal agencies with no particular expertise in water
law are entitled to pick and choose which users’ rights
to curtail without regard for priority.
Oregon follows the doctrine of prior appropriation
in allocating water rights. It is not alone on this score.
Among the contiguous 48 States, all seventeen west of
Missouri have adopted the prior appropriation doctrine
“as either a complete replacement for or addition to
traditional common law riparian rights,” which is the
governing approach in Eastern States. Andrew P. Morriss, Lessons from the Development of Western Water
Law for Emerging Water Markets: Common Law vs.
Central Planning, 80 Or. L. Rev. 861, 865 (2000).

8
Unlike the common-law doctrine of riparian rights,
which allocates an equal right to use water to every
owner of land along the watercourse (Tarlock, supra,
§ 3:10), the prior appropriation doctrine awards rights
to use water in the order in which users make beneficial use of the water. Each user’s water right is defined
by the extent of its beneficial use, and earlier-in-time
rights have priority over later-in-time rights.
The prior appropriation doctrine was adopted
throughout the West because it was uniquely well suited to the challenges of settling and developing arid
Western lands. “It was a pragmatic and workable frontier system [that] provided security of right to those
who had invested” in making use of water, while giving
“notice to later entrants of what water remained available for their use.” Robert Haskell Abrams, Prior Appropriation and the Commons, 37 UCLA J. Envt’l L. &
Pol’y 141, 150 (2019).
In a prior-appropriation system, users with valid
water rights who are not receiving water may affirmatively exercise their rights to receive water in dry periods, by making a “call” on the water source. The priority of a senior user who fails to make a call “is temporarily suspended and the right goes to the next right in
order of priority until the senior again makes a call.”
Tarlock, supra, § 5:34. Once a call has been made, state
officials administer water rights in reverse order of
priority. When there is insufficient water to satisfy all
rights on the system and there is a call, the State curtails water diversions for the junior-most user, and
then the second most junior, and so on, as needed until
the calling rights have received their water. Under Oregon law, therefore, petitioners had the right to have
their relatively senior water rights filled in full until
all rights of water users junior to petitioners had been
curtailed to satisfy any valid senior claims.

9
Petitioners argued below that the government deprived them of this right by cutting off their water
without curtailing the water of junior users and determining whether that curtailment was sufficient to preserve the needed water levels. The Federal Circuit
simply ignored this problem. Rather than address
whether the government had denied petitioners their
rightful priorities, the court punted, stating that it was
not the court’s “purview” to figure out priority issues,
and that in any event, it saw “no reason for the Bureau
to have curtailed junior users’ water” first. Pet. App. 60
n.30.
That analysis (or, more precisely, lack of analysis)
shows a shocking disregard for the doctrine of prior
appropriation and the manner in which States traditionally administer it. The order of priorities in a prior
appropriation system is strict. Even if petitioners’
rights were deemed junior to the tribal rights that the
court of appeals had recognized, petitioners’ rights
could not be curtailed to satisfy those tribal rights until
all rights junior to petitioners’ had first been curtailed.
By allowing the Bureau of Reclamation to curtail water
rights without consideration of users’ respective priorities, the Federal Circuit broke with more than a century of Western water law.
C. Reclamation Act delivery contracts do not
override state-law rights to use water

If, as we and petitioners contend, the Federal Circuit erred by ignoring the McCarran Amendment and
water users’ priorities, then farmers and ranchers all
across northern California and Oregon are entitled to
compensation for the taking of their water rights and
the resulting refusal to deliver water in 2001.
The Court of Federal Claims disagreed on alternative grounds. It concluded (Pet. App. 168) that certain

10
petitioners’ water rights had been “altered” by force
majeure provisions in their delivery contracts with the
Bureau of Reclamation, immunizing the government
from liability for taking water on account of “drought,
inaccuracy in distribution or other cause” (id. at 165).
In light of this language, the court concluded, petitioners were “barred from seeking compensation” for a taking of their water rights. Pet. App. 168-169.
This conclusion, too, was manifestly wrong. The
Bureau’s protection from contractual liability for failing to deliver water from Upper Klamath Lake says
nothing about farmers’ and ranchers’ independent
state-law property rights to use the water from the
Klamath River. The use right is appurtenant to the
land and exists regardless whether the Bureau bears a
contractual duty to deliver. 2
Federal project water users who have delivery contracts with the Bureau of Reclamation have two distinct kinds of water rights: rights to use water (determined by state water law) and rights to receive the delivery of water (determined by contract). See, e.g., East
Ridge of Fort Collins, LLC v. Larimer and Weld Irrigation Co., 109 P.3d 969, 971 (Colo. 2005) (en banc) (distinguishing “water rights” in the “traditional sense”
from “contractual water delivery rights”).
As we have just discussed, state-law use rights are
acquired under the doctrine of prior appropriation
through actual beneficial use of water and “reside[] in
the owners of the land.” Klamath Irrigation Dist. v.
United States, 227 P.3d 1145, 1162 (Or. 2010) (quoting
Nevada v. United States, 463 U.S. 110, 126 (1983)).
The Federal Circuit did not reach this issue because its holding
that tribal rights had priority over all petitioners’ rights was “dispositive of the case.” Pet. App. 63.
2

11
That remains true even when the water is provided by
a federal reclamation project: In that situation, the
government is “simply a carrier and distributor of the
water” (California v. United States, 438 U.S. 645, 677
(1978)), and its “ownership of the water rights [is] at
most nominal” (Klamath Irrigation Dist., 227 P.3d at
1162 (quoting Nevada, 463 U.S. at 126)). The landowner retains the “beneficial interest” in the use right.
Ibid. (internal quotation marks omitted).
Use rights are separate from the contract rights of
federal project users to have water delivered via federal water works. Users obtain delivery rights in their
contracts with the Bureau of Reclamation, and they in
turn pay “sums stipulated in the contracts as reimbursement for the cost of construction and annual
charges for operation and maintenance of the works.”
See Ickes v. Fox, 300 U.S. 82, 95 (1937); Nebraska v.
Wyoming, 325 U.S. 589, 614 (1945).
The upshot of the distinct natures of these rights is
that, in prior-appropriation states, “the entity that applies [federal project] water to beneficial use has a
right that is more than a contractual right.” United
States v. Pioneer Irrigation Dist., 157 P.3d 600, 609
(Idaho 2007) (emphasis added). When a water user’s
beneficial use is greater in scope or quantity than its
contractual right to receive under the terms of a Bureau of Reclamation delivery contract, the user’s use
right is not limited by contract provisions, but by the
amount of water actually used. See United States v.
Alpine Land & Reservoir Co., 697 F.2d 851, 853 (9th
Cir. 1983) (actual beneficial use determined farmers’
water rights, rather than federal contracts “which purport to limit the water duty”); Fox v. Ickes, 137 F.2d 30,
33 (D.C. Cir. 1943) (“The water-rights of [users] are not
determined by contract but by beneficial use.”).

12
The Court of Federal Claims thus erred when it
held that force majeure provisions limiting the government’s liability for failing to deliver water went further by limiting petitioners’ rights to use water. Pet.
App. 168. The right to use water and the right to receive a delivery are separate. Accordingly, if petitioners
are correct that their use rights were improperly curtailed, they are entitled to compensation for the taking
of those rights—even supposing their contracts with
the government authorized the government not to deliver water under the circumstances.
II. THE QUESTION PRESENTED IS EXCEPTIONALLY IMPORTANT TO AMERICAN FARMERS
AND RANCHERS

The issues raised in this petition are of vital importance to farmers and ranchers throughout the
American West. They depend for their livelihoods on a
reliable supply of water to irrigate their lands. According to the Federal Circuit, the federal government has
the power to override State-determined water rights
and seize water for federal purposes—all without paying compensation. If that is the law, it should be this
Court that says so.
A. Water is essential to Western farmers and
ranchers

The question presented in the petition is not a
mere abstraction. Its resolution will have an immeasurable practical impact on farmers and ranchers—not
only in northern California and Oregon, but throughout the entire American West.
Irrigation is essential to productive and sustainable agriculture. According to the World Bank, “irrigated agriculture is, on average, at least twice as
productive per unit of land, provides an important
buffer against increasing climate variability, and al-

13
lows for more secure crop diversification.” The World
Bank, Water in Agriculture, perma.cc/R7PH-AZP8. Irrigation has played a particularly critical role in making agriculture possible in the West, which has “a fragile geography marked by climate extremes, particularly
in water supply.” John H. Davidson, Sustainable Development and Agriculture in the United States, 32
Envt’l L. Rep. 10543, 10546 (2002).
Indeed, the harsh conditions of the West make
farming and ranching virtually impossible without irrigation. The continental American West comprises 11
States; in six of those States, including California, irrigated farms account for 97-99% of the market value of
all crops sold. Cong. Research Serv., Irrigation in U.S.
Agriculture: On-Farm Technologies and Best Management Practices 2 (Oct. 17, 2016), perma.cc/2942-LFJX.
In the remaining five States, Hawaii, and Alaska, irrigated farms account for a significant majority of the
market value of all crops sold. Ibid.
What is more, agricultural irrigation accounts for
“approximately 80 percent of the Nation’s consumptive
water use and over 90 percent in many Western
States.” U.S. Dep’t of Agriculture, Econ. Research
Serv., Irrigation and Water Use, perma.cc/3DDAFMSD. And it should go without saying that when water is in short supply, irrigation is far less effective.
Lyndon Kelley et al., Mich. State Univ., Adequate water supply is the heart of an irrigation system (Mar. 4,
2019), perma.cc/QHF5-S7K6 (noting the “importance of
an adequate and dependable irrigation water supply”
for proper irrigation). American farmers and ranchers
thus depend upon a reliable supply of water.
Unsurprisingly, therefore, water shortages can be
devastating for Western farmers. For example, when
California experienced a severe statewide drought between 2012 and 2016, some $45 billion in crop revenue

14
was lost, and more than 27,000 farm and ranch employees lost their jobs. Nat’l Geographic, The California
Drought, perma.cc/LQ6Z-K2YT. By 2015, 15 percent of
the farmland in California was lying fallow due to the
lack of adequate water. Ibid.
The manmade water shortage that the Bureau of
Reclamation caused when it refused to recognize petitioners’ water rights had a similarly disastrous impact.
As a result of the Bureau’s action, some 1,200 farms in
the Klamath Basin area received roughly a third of the
water in 2001 that they otherwise would, causing “well
over $100 million in” immediate economic damage
(Blake Hurst, Calamity in Klamath, The Am. Enter.,
Oct./Nov. 2002, at 28) and threatening the area with
crop damage and decreased land value for years to
come (Cong. Research Serv., Klamath River Basin Issues: An Overview of Water Use Conflicts 13 (June 13,
2002), perma.cc/KLE5-YB9U).
Under the rule announced by the Federal Circuit,
farmers and ranchers in the arid West operate under
the constant threat that federal bureaucrats will unilaterally override their water rights in service of federal interests once more, just as they did in 2001. That is
not a tenable position, and the stakes for farmers and
ranchers thus could not be higher.
B. The decision below eviscerated farmers’ and
ranchers’ reasonable reliance interests

Just as farmers depend upon a reliable supply of
water for their livelihoods, they also depend on having
a clear understanding of what their water rights are,
and what priority those rights have vis-à-vis other users, so that they can make informed decisions when
planning for the future. State-law water adjudications
provide this clarity. These adjudications establish a
single hierarchy of priorities that encompasses every

15
user in a water system. And because an adjudication is
conclusive as to all parties, “including parties with a
duty to participate in the adjudication,” it purports to
settle rights once and for all, without the possibility
that absent parties will come forward to assert claims
later. See Tarlock, supra, § 7:22.
But comprehensive state adjudications are of little
use to farmers if there is no assurance that the results
of these adjudications will be respected. The court of
appeals’ decision denies farmers that assurance. The
comprehensive adjudication that Oregon conducted
here gave petitioners the right to use water from the
Klamath Project. But the court of appeals allowed the
Bureau of Reclamation to deny petitioners their rights,
by holding that the Bureau was permitted to withhold
water to satisfy tribal rights that had never been asserted in the state adjudication. And if future water
disputes arise in the Klamath Basin, the court of appeals’ decision will serve as precedent for allowing the
Bureau to nullify petitioners’ rights again.
The impact of the decision below will not be limited
to the Klamath Basin. As we have noted, every State in
the West applies some form of the prior appropriation
doctrine (see supra, page 7), and many are home to a
number of Indian reservations, scores of which are
scattered throughout the landscape. Indeed, “[i]n the
11 Western[most continental] States, Indian lands total about 43 million acres or about 6 percent of all
land.” U.S. Gen. Accounting Office, Reserved Water
Rights for Federal and Indian Reservations: A Growing
Controversy in Need of Resolution 18 (Nov. 16, 1978),
www.gao.gov/assets/130/124667.pdf.
The court of appeals’ analysis would allow the government to invoke federal interests, including tribes’
interests that are asserted to be coterminous with the
requirements of the Endangered Species Act, even

16
where state authorities and courts have determined
that farmers’ rights have priority. A clearer example of
a government taking would be difficult to conceive.
Without just compensation for such takings, farmers
would be profoundly discouraged from making productive investments in agriculture.
In short, petitioners and other farmers have strong
reliance interests in water rights that they have been
granted in state adjudications—water rights essential
to the system of American agriculture that provides
food and fiber to the Nation. If the government wishes
to override those reliance interests and take farmers’
water rights for some public purpose, it must provide
just compensation. Taking these rights without compensation, as the government did here, is a clear violation of the Fifth Amendment. This Court should grant
review and reverse the Federal Circuit, reaffirming
that federal agencies may not undo state water-rights
adjudications by fiat.
CONCLUSION

The petition for certiorari should be granted and
the decision below should be reversed.
Respectfully submitted.
ELLEN STEEN
MICHAEL B. KIMBERLY
TRAVIS CUSHMAN
Counsel of Record
American Farm
MATTHEW A. WARING
McDermott Will & Emery LLP
Bureau Federation
500 North Capitol St. NW
600 Maryland Ave. SW
Washington, DC 20001
Suite 1000W
Washington, D.C. 20024 (202) 756-8000
(202) 406-3600
mkimberly@mwe.com

Counsel for Amici Curiae
APRIL 2020

